fT

C@QCKLE

: E-Mail Address:
Le ga 1B ke efs contact@cocklelegalbriefs.com
st. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

Nos. 19-431 & 19-454

LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME,
Petitioner,
Vv.
COMMONWEALTH OF PENNSYLVANIA AND STATE OF NEW JERSEY,
Respondents.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL.,
Petitioners,
v.
COMMONWEALTH OF PENNSYLVANIA AND STATE OF NEW JERSEY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF RESPONDENTS
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 12968 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 1st day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Notary Public Affiant 39521

         
 

GENERAL BOTARY-State of Webraska
A RENEE J. GOSS
My Comin. Exp. Soptorbr 6, 2023

 

 
